HHS/OIG, Audit -"Review of the Outpatient Cardiac Rehabilitation Services - Memorial Hospital Jacksonville,"(A-04-03-01002)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Outpatient Cardiac Rehabilitation Services - Memorial Hospital Jacksonville," (A-04-03-01002)
November 18, 2003
Complete
Text of Report is available in PDF format (304 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed Memorial Hospital Jacksonville for
outpatient cardiac rehabilitation services.  Our review disclosed that although the hospital designated a physician
to directly supervise the services provided by its cardiac rehabilitation program, we found no supervision during exercise
sessions. In addition, we could not identify the physician professional services to which the cardiac rehabilitation services
were provided incident to.  From our claims review for 30 sampled beneficiaries who received outpatient cardiac
rehabilitation services during calendar year 2001, we determined that the hospital received Medicare payments of $2,123
for services provided to beneficiaries where medical documentation may not have supported Medicare covered diagnoses and
for services not otherwise allowable.  We recommended that the hospital:  (1) work with its fiscal intermediary
to ensure that its outpatient cardiac rehabilitation program is being conducted in accordance with the Medicare coverage
requirements for direct physician supervision and for services provided incident to a physicians professional service;
(2) work with its fiscal intermediary to establish the amount of repayment liability for services provided to beneficiaries
where medical documentation may not have supported Medicare covered diagnoses and for services not otherwise allowable;
(3) implement controls to ensure Phase III cardiac rehabilitation services are not billed as Phase II services; and (4)
implement controls to ensure only one unit of service per beneficiary is billed for each cardiac rehabilitation session.  The
hospital generally agreed with our findings and recommendations.